-ATTACHMENT 1No. 20

In The
The Supreme Court of the United States

Eboni Nicole Baldwin (PRO SE), Petitioner
v.
Latoisha Dorsey, Respondent

ON PETITION FOR
A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Eboni Nicole Baldwin, PRO SE, certify that
the accompanying Petition for a Writ of Certiorari contains 6182 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on November 21, 2020.

Enoni ^jedle Baldwin
PRO SE, Petitioner
P.O. BOX 366754
Houston, TX 76032
(832) 786 -8262
baldwinebonilegal@gmail.com

